                       /..




         MEDICARE

  CATARACT IMPLANT SURGERY



     . 1981   1982           1983                198   1985

                                                          $ 2, 856       M




                                                              816, 000

$ 877 M


327, 000




                         '" !t L..VICls.
                                           J:,




                         0I."'4JU



        NATIONAL PROGRAM INSPECTION
        OFFICE OF INSPECTOR GENERAL
   DEPARTMENT OF HEALTH & HUMAN SERVICES
                     MARCH 1986
                            OFFICE OF INSPECTOR GENERAL


 This inspection was conducted under the leadership of the San Francisco
 regional office and its Seattle field office with assistance from the New
 York regional office.
 The report was prepared by:                   With asistance       from:

- Paul Gottlober                               Barry Steeley
 Julie Bautista

 John Daise
                                   Headquarters Office
 Wayne Wilson                                  Washington ,   D.





 Office of   Analysis and Inpections ,   Region IX

 March 1986


 Control # OAI- 85-IX-046
              MEDICARE CATARACT IMPLA SURGERY





                                 INTRODUCTION


  Within the pat decade         cataract surgery (especialy       the   implantation of
  intraocular lenses) has given many elderly restored viion ,     increasing their self­
- sufficiency and sense of well-being. Technical advances and widely-mastered
 surgical precision have combined     to make this   brief surgery remarkably effective
 with minimal risk to the patient.

  Dramatic restoration of     sight and near unversal      consumer satisfaction have
 created a demand which wil result in almost one milion cataract surgeries in
  1985, and is projected to   increase to two milion by   the year 1990.

 Detracting from this success   story are reports of fraud, waste and abuse which
 have tainted those involved: the      manufacturer , the surgical facilty and the
 ophthalmologist. The House Subcommittee on Health and Long Term Cae projects
 that this wil  result in a loss to the taxpayer of almost $2 bilion in     1985.
                                                                              This
 inspection , unike the House Subcommittee report , does not address the issue of
 medical necessity of individual cataract surgeries. - The Inpector General of
 Health and Human Services finds that Medicare is paying over $500 milion each
 year in unecessary costs ,
                          including discounts such as rebates and kickbacks that
 are not being     pased on to      the government. Overcharging for the lenses
 inflating the costs of surgery and    exorbitant mark- ups of facilty fees are almost
 universal. In more   human terms ,      sometimes the elderly Medicare beneficiary
                                      it is
 who is helping   to subsidize the high incomes ,
                                                perks and gratuities of the cataract
 surgery industry.      This report identifies the significant. factors involved and
 recommends measures that     ca be taken to prevent such losses in the future.
 The specific purpose    of this inspection is to:    . (1) determine what Medicare
 paying for the components of cataract surgery (the facilty,         the lens   and the
 professional practitioner), (2) identify the factors affecting costs and charges
 among hospital inpatient settings, hospital outpatient departments , ambulatory
 surgical centers and physicians' non-crtified surgical suites (3) assess the impact
 on beneficiaries and (4) determine how manufacturers          and the forces of the
 market place are influencing    services and expenditures.

 This inpection is baed on the results of                  valid random sample of
 ophthalmologists who bil     for   intraocular lenses and a representative sample of
 surgical facilties. It was conducted in Caifornia, New York         Florida,
 Pennsylvania , Texas and Washington , where more than one-third of Medicare
 beneficiaries reside. Contacts included 46 hospitals and surgical facilties ,        38
 physicians , 50 ancilary staffs , 93 beneficiaries and their familes and 5 of the12
 major lens manufacturers. Inpector General staff analyzed physician Medicare
 payment histories , patient medical and financial records , manufacturers' invoices
 and Medicare claims.
                   MAJOR FINDINGS

SPECIALIZATION , VOLUME AND HIGH TECHNOLOGY IN CATARACT
SURGER Y HAVE MERGED TO GIVE SIGHT AND SELF-SUFFICIENCY TO THE
ELDERLY.

KEEN COMPETITION FOR MEDICARE PATIENTS HAS PRODUCED A WlDE-
OPEN MARKET PLACE FOR AN EXPANDING 2. BILLION DOLLAR
INDUSTR Y.

UNCHECKED  CATARACT SURGERIES WILL INCREASE TO 2 MILLION AND
COST THE TAXPAYER NEARLY $6 BILLION BY 1990.
THE MEDICARE PROGRAM AND BENEFICIARIES ARE PAYING MORE THAN
NECESSARY-AT LEAST $500 MILLION MORE PER YEAR.
MANUF ACTURERS' INCENTIVES AND SALES PROMOTIONS ARE CONTRI­
BUTING TO EXCESSIVE COSTS.

PROVIDERS, NOT MEDICARE, ARE BENEFITING FROM MANUFACTURERS'
AGGRESSIVE PRICE CUTTING.

SOPHISTICATED MARKETING SCHEMES BY THE INDUSTRY ARE COSTING
THE ELDERLY AND MEDICARE MILLIONS.
MEDICARE REIMBURSEMENT POLICY ENCOURAGES WIDE VARIATIONS IN
THE COSTS OF LENSES, EQUIPMENT AND SURGERY.

UNNECESSARY COSTS OCCUR BECAUSE MEDICARE:

   PAYS DOUBLE OR TRIPLE THE PURCHASE PRICE FOR LENSES.

   PAYS HIGH FEES TO ALLOW ANY PROVIDER TO PURCHASE HIGH TECH
   EQUIPMENT THAT COULD BE SHARED.

    REIMBURSES HOSPITAL OUTPATIENT DEPARTMENTS UNDER THE
   "REASONABLE COST" SYSTEM WHICH ENCOURAGES INEFFICIENCY.

    ALLOWS THE SERVICES OF OPHTHALMOLOGISTS, ASSISTANT SURGEONS
    AND ANESTHESIOLOGISTS TO BE BILLED AND PAID SEPARATELY.

    PAYS FOR ASSISTANT SURGEONS AND ANESTHESIOLOGISTS ALTHOUGH
    LESS COSTLY BUT QUALIFIED AND PROFICIENT TECHNICIANS AND
    NURSES ARE AVAILABLE. 

               PROPOSED CHANGES

LIMIT HOSPITAL OUTPATIENT FACILITY FEES AND BENEFICIARY
CHARGES TO APPROXIMATE MEDICARE PAYMENTS AND CHARGES NOW
AUTHORIZED FOR AMBULATORY SURGICAL CENTERS.

ESTABLISH A NATIONAL CAP (BASED ON A GENERIC PRUDENT BUYER
CONCEPT) FOR LENS PA YMENTS WHEN LENSES ARE BILLED
SEPARATELY.

PAY A SINGLE PROFESSIONAL FEE TO COVER ALL PROFESSIONAL STAFF
ASSOCIATED WITH CATARACT SURGERY.

CREATE AN INDEPENDENT COMMISSION TO ASSE SS PERIODICALLY THE
CHANGES IN SURGICAL PROCEDURES AND TECHNOLOGY AND MANDATE
ADJUSTMENTS TO MEDICARE REIMBURSEMENT.

                CA TARACT SURGERY AND IOL IMPLANTS



    Immediately behind the pupil of the eye   is thelens. , Light paes through the
    lens and is focused on the inner beck of the eye , or retina. The normal lens is
    clear. A   cataract is a dakening of the lens. The lens changes in color from
    clear to black or opque. When the lens is fuly opque, no light ca pas
    through and the patient is totaly blind.
    The cataract condition ca be corrected by surgicaly removing the lens and
    replacing it with a prosthetic lens. Prosthetic lenses include contacts , eyeglaes
-   or surgicaly implanted intraocul lenses. An intraocula lens (lOL) consists of
    an optic portion which actualy corrects the   vision and an haptic, or loop, portion
    which secures the lens to the eye.

    Most optics are made from a platic, caed PMMA , while the loops       ca
                                                                        be either
    PMMA or polypropylene. Lenses come in a variety of styles which are primarily
                         lop
                                  ridges.
    distinguished by the      configuration or material. Many lens styles are
    deignated by the   naeof the ophthalmologist who deigned the lop style; i. e.,
    "deigner lenses"    Lenses are alo available with added features such as
    ultraviolet filters or laer


                       THE EYE                               INTRAOCULAR LENSES




                                          CORNE

                                          PUIL

                                         NTEOR
                                                       LOO




    The most    commonly   implanted lenses are positioned behind the pupil in the
    posterior chamber of the eye. When     this cannot be done , an anterior chamber
    lens is used which is attached in front of the pupil and iris. Most providers
    maintain an inventory of both types of lenses in several styles and numerous
    strengths. The inventory frequently includes lenses from several manufacturers.
    The lenses are usually supplied on consignment so that providers only pay for the
    lenses when they are used.
  CATARACT SURGERIES - u. s. -       1985	     Cataracts occur most commonly
                                               after the age        of   50 and the
                                               Medicare aged population is the
                                               predominate receiver of cataract
                                               surgery. Although cataracts are the
                                               second leading cause of blindness
                                               the condition rarely       becomes an
                                               emergency. The decision of when
                                               to have surgery is normally left to
                                               the patient.       The significance of
                                               improved viion for an individual to
                                               perform daily activities is a primary
                                               consideration. For example , the
                                               person with cataracts who fails a
          1 MILLION tOol. IMPLANTS             dri ving test      can either choose
 Medicae pays for about      82 percent of     surgery or dicontinue operating an
 al cataract surgeries.                        automobile.


CATARACT SURGERY CAN BE EFFECTIELY PERFORMED IN EIHER
OUTPATIENT OR INPATIENT SETTG
     dramatic shift   in the setting for cataract surgery ha occurred in the last
year. The surgery, that hitorically involved an inpatient hopital stay of three
to six, days, ca now       be
                           performed on an outpatient bais. Formerly the
exclusive province of the hospital ,the surgery is now frequently performed in
ambulatory surgical centers and even doctor' offices. Significantly, hospitals
themselves have been a part of this change in that surgery is now most
frequently performed in the outpatient department of the hospital.
   combination of factors ha hatened this trend. A' major influence is the
Professional Review Organization (PRO) which requires prior authorization for
hospital stays asociated with cataract surgery. Other factors contributing to
this change include the reduced rik asociated with the operation , technological
advances in the surgical procedure, and Medicare prospective payment rates.

While a patient with severe coronary or pumonary diease (or other life-
threatening condition) may need inpatient hopitalization , ophthalmologists agree
that routine cataract surgery can be performed in the outpatient department of a
hospital or    in an ambultory surgical center.        Some ophthalmologists are
performing surgery in their own surgical suites, which are comparably equipped to
surgical centers , but lack Medicare certification. Medicare      certification asures
that the facilty meets safety standards and many             of   the ophthalmologists
included in this inpection were in the proces of obtaining Medicare certification
for their surgical facilties.


The shift to the outpatient setting is a welcome development for Medicare
beneficiaries who generally prefer being able to recuperate in their own homes
and often dread the thought of a hospital stay. Professionals concur in this
attitude from a gerontological standpoint , as it reduces the image of progressive
disabilty asociated with the aging process. Among beneficiaries there
widespread acceptance of having surgery in a      free-standing ambulatory surgical
center.
                        ...-.-. ..-   ....-......,...-­                            .......
                                                                     .. -.. -.-... :. ..........-.      ..-. ._... .._.._.......
                                                                                               ... ....--_..
                                                                         ......... &. .... ...... _. ..... .-. -. .
                                                                     - - ..........
                                                                     -                                                ---




                                                  FUTURE TRENDS

                                                     GROWTH
INTRAOCULAR LENS IMPLANTS FOR CATARACT PATIENTS IS A
INDUSTRY

Lens manufacturers and market ana)ysts predict that the number of cataract  and
surgeries involving the tEe of
intraocular lenses will continue to increase
                                                      this wil mean an increase
may, in fact , double by the year 1990. For Medicare,anuay    by 1990.
to almost 2 milion surgeries costing almost $6 billon



                                                          FU TA

        MEDICARE LOL
                                                                                    MEDARE COSTS


   - -- .-- -.. -. t.




                                                                        188        1887         118          '18          '''0
   1888            1887          188                      181
        Cataract sureries and the                         cot to Medcae are prjected to nealy
        double in five                yea.

 Many factors influence these projections, including the growing aged population
 the trend towards cataract surgery on younger Medicare beneficiaries, and the
 success rate of the implant surgery itself. Alo, 

                                                      there is less reluctance to
                                                 have  been wearing eyeglaes 

 undergo the surgery and cataract patients who
                                        lenses.
 contacts are now opting for intraoculr 


 AN OBVIOUS TREND IS THE CONTIUED SHIFT OF SURGICAL
                                                                                                           SETTG FROM
 INPATIENT TO OUTPATIENT
 There are some advantages for                             hopital to   encourage the move                    away from the
 inpatient setting, so long E the suery                           is stil performed at the hospital. Many
 hospital have found that the payments under the Medicare prospective payment
                                                                         more
 system have rendered inpatient cataract surgery unprofitable and that
 Medicare revenue can be generated by the outpatient department.
 As surgical procedures                         become les complicated and riky, many                          surgeons seize
 the opportunity to achieve more autonomy from                                hospital. This incentive, coupled
                                                                    , is expected
 with the generaly reduced intervention of health planning agencies
 to lead to the development of more surgeon-controlled ambulatory surgical centers
 where the physician is les dependent on the hospital and can receive payments
 for the facilty as well as the surgery.
     THE MARKETING              OF     CA TARACT SURGERY


The marketing of cataract surgery and intraocular lens implants is
determining          the cots for
                               Medicare and            its
                                                     beneficiaries.
Cataracts are currently coting the government over $2. 8 bilion a
year. This may double by 1990 if the increased demand for this
surgery continues and the Medicare reimburement dos not
change. The projected economic growth js the primary force
behind an intense marketing strategy involving physicians , surgical
facilties and manufacturers. Alost 30% of the elderly between
65 and 74 have impaired viion and are the taget of an
advertising blitz by hospital and physician. This is the first
time a Medicare procedure ha been so aggresively marketed by
so many diferent components of the health cae community.

The major players-physician, surgical facilties, maufacturers
ditributors and saespersons- drive the marketing.
Ophthalmologits compete        for   patients by opnly advertising their
services on radio, TV and      in newspapers, and offering inducements
such as no-cot          surgery, free transportation , and free lunch
following surgery. Some      of the    highest volume physicians own and
operate specialized centersdevoted excl15ively to cataract        surgery
and fuly equipped with state-of-the-art technology.

Hospital are moving aggresively to maintain their relative market
share by advertising diectly to the elderly. Like , physicians , some
offer free surgery by     waiving the Medicare coinsurance and
deductibles. Recent   shifts to outpatient settings put        hopital
diect  competition with ambulatory surgical centers and physicians
who operate in their offices.
Lens and Equipment        Manufacturers   are competing    aggressively for
sales and market domination. Large            dicounts are common and
include equipment rebates or credits. Free trips and training are
almost routine exchanges for lens purchases. Intances have been
reported of , offers to         depoit kickbacks      in   foreign benks.
Ophthalmologists are even offered commisions for             lens saes to
hospital.
Although these intense marketing activities have sometiines
resulted in improved products and reduced cots, the savings have
not been paed on to the federal government , which pays more
than $500 millon annualy         in unecesary Medicare expenditures
for cataract surgery.




                                 -7­
                                                             " -




                    THE BENEFICIARY'S EXPERIENCE


For the beneficiary, cataract removal and IOL implant              is a literal   miracle.
Surgery is simple and relatively painles. Hospitalization is normally
unnecessary and recovery is brief. The cot is frequently minimal and
vision is    improved or restored.

OIG staff talked to 93 beneficiaries during the inpection. Most expressed
an overwhelmingly poitive reaction to the results of their cataract surgery.
Typica comments were:

      "It'    marvelous and so      eay to      go though.      "I'd   recommend it
    anyone        th a problem. "   -"I' m so happy     I ca even      read without my
    glaes now.

A few people, although satisfied with the results ,          encountered complications
such as glaucoma. Fewer than 4' were diatisfied with their surgical
experience.
Most of the      patients recovered quickly from surgery, went home within a
few hour       and resumed normal activity almost immediately. One man
returned to work the following        day.

The  typical setting for their surgery was outpatient-most commonly
hospital outpatient clnic. Some beneficiaries reported that doctors have
told them that       Medicare    will not alow patient hopital admissions for
cataract surgery. This      misconception resulted in such beneficiary        comments
as "I' m violently opposed     to the Medicare     restriction that surgery ha to      be
outpatient. The U.s. government ha no buines setting the conditions
under which a doctor can operate or which dictate where a doctor can
operate. I can't see clearly and think it is because the doctor had to hurry
to finish the surgery in the outpatient setting.

In most caes, however , Medicare beneficiaries are well aware of their
options for cataract        surgery.
                                Ophthalmologists ditribute educational
pamphlets , give taks at senior citizen centers and stres patient education.
During surgery, they even alow relatives to observe the actual procedure on
closed-circuit TV.

Beneficiaries' out-of- pocket    expenses for cataract surgery vary greatly. In
this sample, haf  said they paid nothing, but most had supplemental
insurance whose premiums must be taken into , account. These premium$
frequently total $1400 or more a year. Few beneficiaries said Medicare,
solely or in combination with Medicaid , paid for everything. Total payments
(in addition to Medicare and supplemental inurance), varied greatly, most
commonly about $1000 but             as high as $2500. Several persons were
ditressed about the      extraordinary charges. As one said, "I' m not happy
about having       to pay extra for          the anesthesiologist.     Another stated
"Cataract surgery     is too cotly.
                                 I worked at the Medical Center 16                 years,
and I know the cots are too high.

Beneficiary opinions and comments supported conclusions drawn by the OIG.
The benefits are remarkable,         the medical practice is patient oriented , but
cots are     often excesive.
      SURGICAL SETTINGS DICTATE CURRENT MEDICARE

             PA YMENTS AND BENEFICIARY LIABILITIES



Complex Medicare reimbursement principles and policies result in wide payment
variations among
               the four settings           for cataract surgery.    Even    within a
                                                                          given
setting there are marked        differences. A description of these complexities
explains why excessive Medicare payments can occur.
REIMBURSEMENT POLICIES

Services asociated with cataract     surgery are reimbured by the Medicare program
based on   Diagnostic Related Group (DRG)      rates for inpatient hopital services,
reasonable cot determinations for outpatient hopital services , reasonable charge
alowances for physician services and fixed rates for Ambultory Surgical Centers
(ASC). The total   payment for any patient receiving cataract surgery wil almost
always include at least two of these methodologies; the only exception is when a
physician performs the surgery in hi office and his office ha not been certified
as an ASC. (In this cae, he would not receive a facilty           fee.

PHYSICIAN FEES


Cataract surgery always includes a physician professional component which is
reimbursed by Medicare under the reasonable charge methodology. The payment
is made directly to the beneficiary       unless the doctor   ha accepted asignment. If
the doctor does not accept assignment       , he
                                           may bil and receive payment from the
beneficiary for hi     total charge. If
                                    the doctor accepts asignment , he can collect
only the difference between the Medicare payment and the Medicare allowance
plus any outstanding annual deductible ($75). Under most circumstances , Medicare
pays 80 percent   of the reasonable charge alowance. One major exception is
when cataract surgery is performed on an outpatient bais; if the doctor accepts
assignment , he receives 100 percent of the reasonable charge determination and
the beneficiary is not liable for any coinsurance or ded ctible. The physician
may charge a separate fee for the 10L except when the surgery ha been
performed during an inpatient hospital stay. The IOL is always reimbursed at the
80 percent rate.
FACILITY FEES


In addition to the   payment for the physician' s   service , Medicare will pay:

    Hospital Inpatient-A Prospective Payment DRG-39 rate baed on               a three-day
    stay. including al facilty services,
                                       the IOL and other supplies.             The hospital
    can collect only the Medicare     hopital deductible      from the   beneficiary.
    Hospital Outpatient-A percentage of cot to charges baed on a cot report
    audit by the hospital' fiscal intermediary. The charges may or may not
    include the IOL and the hospital can collect 20 percent of its charges from
    the beneficiary.
    Ambulatory Surgical Center-A fixed          fee for al facilty services which does
    not include the IOL. The ASC receives 100 percent                    of the   reasonable
    charge alowance and the beneficiary  pays no coinsurance or deductible. The
    IOL charge is subjected to a reasonable charge determination and the ASC
    can bil the beneficiary for the difference between the Medicare allowance
    and payment.
                                .'\,......
                               ' .-          ...    '.."",-  ,... -
                                                      ::"" :::':':'     .....                                   ~~~


Within a          given setting, Medicare payment                                    is determined by the physician'
diagnosis or the procedure performed. However , the actual facilty payments                                               for
the same treatment differ from one setting to another. Medicare payment is not
adjusted to the payment actualy made to the provider in the least expensive
setting.
COMPARATIE ' COSTS AMONG SETTIGS
This inpection        finds that the total     cost of cataract surgery involving one eye
can be as little as           $1 416 or as much as $6, 740. The charts below present the
breakdown of cots among                      different settings.

                          TOTAl              tJlCA 1tv                              COSTS   (RS)
                        HOSPITAL                   INPATIENT                              HOSPITAL OUATIENT

                                                                                                              250780
      Lena                                         (INCUD IN ORO)
    FaclUty                                                      120280                     '-1wl             18320
       M.D.           lii(                                       1212-2150                                   1212-2110

     TOTAL                    _t-'    'ai-         iif                                           .tntElk:l
                    AMBULATORY SURGICAL CENTER                                              PHYSICIAN' S OFFICE

                                                                                                               144-408
       Lens



     Facilty mi                                                        481-"
           M.D.         t.l                                       1272-2110             iiit                 1272-2750

                                                                      201-3103                               1418-3158
     TOT Al


     Cataract surgery is more cotly in                                      a hospital setting   whether inpatient
      or outpatient.           Physician fees are the same in                               al settings.


Since Medicare will not pay                          a physician a separate facilty fee when the surgery
is performed in the non-certified office surgical                                       suite, this is the least expensive
setting for the program; however , it is                                         alo the least common. Sixteen of the
ophthalmologists in the sample chose to perform the surgery in their non-certified
surgical suite where the only facilty fee to be collected was directly from the
patient. A   disproportionate number of physicians who perform surgery in non-
certified surgical suites               were included in the sample since the sample was                                 drawn
from physicians and             ASCs who biled for lenses and , typically, hospitals supply
lenses when the surgery     is performed in their outpatient departments. Other
physicians , faced with the inabilty to receive Medicare payments for their non-
certified facilties , choose to perform the operation in the outpatient department
of the hospital.




                                                                         -10­
Of al   the certified settings               ambulatory surgical center
                                 for cataract surgery, the
is the least expensive to the Medicare program. Even when the IOL
reimbursement equals that paid to the highest priced physician , the total facility
and lens  cost averages $865 , compared          to a
                                                 hospital outpatient department
a verage of $1 655.
The following chart shows   average Medicare ,    payments for facilties       and lens
the four settinsr.
             A VERAGE MEDICARE PAYMENTS FOR FACILITY AND LENS




        HOSPITAL INPATIENT $1386                  ASC
                                                                   OFFICE
     HOSPITAL OUTPATIENT $1655                    $865
                                                                    $365


HOSPITAL COSTS BY STATE


Hospital outpatient Medicare reimburement in five of the states in the
inspection indicates significant differences and ranges for cataract surgeries with
intraocular lens implants. Not only does the             Medicare reimbursement vary
significantly among states , but there was a significant range within each state.
Almost every hospital     received reimbursement        for outpatient surgeries that
exceeded the DRG-39 inpatient Medicare reimbursement rate.

                 COMPARISON OF HOSPITAL OUTPATIENT

     MEDICARE REIMBURSEMENT TO DRG-39 INPATIENT REIMBURSEMENT
                         BY STATE REVIEWED



                                   Out atient                DRG-39 In atient
         State                   Reimbursement                Reimbursement
     California                     286-3, 251                 $1, 550-2 400
     Flor ida                       200-2, 224                    820-1 270
     Pennsylvania                   143-1, 851                    100-2, 800
     Texas                          156-1 818                     800-1, 800
     Wash ington                    960-1 634                     900-1 300




                                       -11­
  COST TO BENEFICIARIES
  For beneficiaries ,   the outpatient department of the hopital is the most expensive
  place to have cataract surgery if the hospital collects coinsurance. However
  this inpection found that many hospital are waiving coinsurance to compete with
  ASCs. Some hospitals have developed an outpatient surgery schedule of rates.
  These rates are biled to Medicare on an interim ' bais and the beneficiary
  coinsurance amount is caculted as 20% of the fixed rate. This reduces the
  beneficiary' s liabilty, but has no effect on actual Medicare reimburement. All
  costs associated with the outpatient department wil be included on the hospital'
  cost report without regard to the schedule of rates and a Medicare              payment
  adjustment wil be made to reflect these cots.

- Some hospital are alo waiving hospital insurance deductibles               for Medicare
  cataract patients who have the surgery as inpatients. Advertising            by at least
  two major hospital chains includes such offers.
  Approximately 50 percent of      the beneficiaries in the inpection sample paid no
  out-of- pocket expnses. For those who do pay,        the amount ca be significant.
  At the   extreme,     this can total as much as $2, 500. The chart ilustrates the
  range of specific charges    asociated with cataract   surgery.


                             RANGE OF BENEFICIARY COSTS



        Lens Alone                                                  0-180
        Lens & Facilty                                              0-800
        Surgeon                                                     0-1400
        Asst. Surgeon                                               0-280
        Anesthesiologist                                            0-275

        TOTAL RANGE                                                 0-2500




  Beneficiaries are paying less because of the competition for patients and be ause
  Medicare s outpatient surgery regulations eliminate coinsurance and deductibles.
  Nevertheless , while many beneficiaries frequently pay nothing towards the surgical
  fee or the facilty, they can incur expenses for coinsurance asociated with the
  anesthesiology service , the assistant surgeon or the intraoculr lens.

  As indicated above; beneficiaries may stil be faced with out-of- pocket expenses
  totallng up to $2500 when the surgeon does not accept asignment , the hospital
  outpatient department charges coinsurance (20 percent of amount biled
  Medicare) and there is no supplementary insurance.




                                         -12­

  REIMBURSEMENT POLICIES PERMIT EXCESSIVE PA YMENTS


  OPEN-ENDED LENS PAYMENTS ACCOMMODATE INFLATED PRICES

  Lenses cost $35 to $50 to    manufacture. The average list  price    for a    lens is
 $325. Ultraviolet filters and laer ridges add about $75 to this lit   price.

 Although dicounts on list prices are 8 recent phenomenon in the U.s., the prices
  manufacturers charge for lenses in foreign       countries have
- consistently lower. In Canada, U.s. manufactured lenses are readily always  been
                                                                      available for
 under $200, while in England and other European countries the
                                                               lenses sell for

 $125 or les.


 High volume users of 1015 have been willng to
                                                 paywil
 Medicare s reasonable cost or charge determination   the list prices knowing that
                                                        readily accept the prices
 without applying any prudent buyer requirement. Furthermore, ASC rates do not
 include the 10L which is reimbured on 8 reasonable charge bais  and can add
 considerably to the ASC' s revenues.





             PROVIDER LENS COST AND MEDICARE REIMBURSEMENT




       MANlEACTU

           o-25





           SELS                  81LLS                        PAYS




The minority of hospitals , ophthalmologists , and ASCs who have bargained with
10L manufacturers or put  lenses out for bid have found that lenses they formerly
purchased for over $300 can now be bought for $150 or
participate in consortium purchase
                                                            less. . Hospitals that
                                         arangements for
beginning to consider 10L purchases as part of these
                                                           other supplies   are   just
                                                       arrangements.




                                     -13­

                                         ::.
                                     ............                ~~~                      -_.
                                                                                ::....:.,""::::::::,
                                                                                                .........




       In the inpection 

       program. Providerssample,  such dicounts were
                           continue to bil             not paed to the Medicare
                                           their pre-scount price .on
       Medicare paying more than $100 millon                        which wil result
       alone.                                   in
1985 in unnecesary  cots 

                                                                                                                                  for lenses

       OPHTHALMOLOGIST

        TREAMLlING                       FEES                 MAY              NOT          REFLECT TECHNOLOGICAL


      The performance           of       cataract
                                       surgery has
      development of advanced sugical techniques
                                                         changed significantly
      settings geared for specialized procedures., sophisticated equipment andwith   the
                                                                                mediCal
      ophthalmologist is now executed in             The knowledge and skil of
 -    than a general anesthetic          minutes rather than hour                   the
      This OCcur with les rik   , In an outpatient setting rather , using a local
                                                                     than in  a
 rather
                                                              and. dicomfort to                                               hospital.

     technological "streamlining"                                                                            the patient. Despite this

                                                    , the fees have                       actualy increased.
      An examination of the
                                  relationship between surgical time and
      defines one of the major                                                 Medicare payment
      without complications nowreasons           why cots
                                       take 20 to 30      are exorbitant. Standard sugeries
     as many as 10 to 15                               minutes. A sugeon may now perform
                            operations
     $1, 200 to $3, 000 for each            in a 
 day. For this , there        surgeon' s fee of
     sample , is $960 to $2 000 per    procedure. Medicare reimbursement is a


                                          surgery. Non-                        , as found in the
     paid by Medicare , and coinsurance are often certified facilty fees

                                                                                 , which are not
                                                                                              added to this amount.


                         BILD
                       PRSSION FES                                      FOR CATARCT
                                                                                                            SUy
                                                                                                            PAID


                         2000

                                                                        !2'?G
                                                      ,/ ::::::::irilmm:::.
                                                    ::::::H!UU                                :mc
                                                     i::::::::'-: :,'i:::::::nm:m.
                                                                      :::::::::::::::::: ::::::::::iI '
                        44                           tW---
                                                         ASSSTAN ....                           ii:m!it     92-36




     TOTAl          1840-4150
                                                                                                      1272-2700
Directly stated , this inpection found the fees
excessive. Ten of the thirty-eight              . of some ophthalmologits to
and $6. milion in 1984.            ophthalmolOgists were paid between
millonaires. Inflated surgery cots
                             Each or                                  $1 milion
                                                                        the states in the sample had
too much and Medicare                                                                              its Medicare
                                                                  are attributable to ophthalmologists charging

                      paying too much. Neither
Medicare has acknowledged                                                  the medical
reducing the charges or payments                    these technological advances  and         profession nor
                                                            associated with cataract surgery.efficiencies by




                                                                -14­

     Some physicians , who complained about losing money because Medicare would not
     allow a facilty fee for their non-certified surgical suites    , still
                                                                   chose to perform
    the   surgery in     their own
                                 offices rather than resort to using the outpatient
    department of the       hopital. Since these physicians were among        the Medicare
    milionaires ,   it is fair to assume
                                  that the Medicare surgical reimburement amount
    was   more than adequate to offset the losses attributed to non-reimbursable
    facilty fees which normally include all supplies and diposables used in the
    surgery.
    High-tech equipment used in connection with cataract surgery is expensive. For
    example, a YAG laser , which is used to treat the minority of cataract
-   who develop secondary cataracts (a clouding of the posterior capsulepatients
                                                                             ' after
    implant which is treated by piercing the capsule surgically or with a laer beam),
    costs in . excess of $60, 000. Rather than use someone ele s YAG , or pool
    resources , each high volume ophthalmologist purchases his own knowing that the
    inflated Medicare reimburement wil pay for the cost of the equipment. Some
    ophthalmologists charge as much as $1 000 for the Y AG procedure , which takes
    less than 15 minutes and involves no manual incision , oprating , room ,             or
    additional supplies.     Although the Medicare payment may only be $500 , th
    excessive charges wil eventualy        be recognized by the program tmder the existing
    reasonable charge methodology.         Thus , Medicare will accept these charges as
    appropriate and they wil     become intitutionalized.
    SHIFTING SURGERY                  OUTP A TIENT     DEPARTMENTS        DOESN'T    BRING
    EXPECTED SAVINGS
    - A popular   perception is that surgery    in Ii hospital outpatient department is far
    less costly to Medicare than when performed in an inpatient setting. This
    inspection found this to be generally inaccurate. In fact , hospital outpatient
    costs can equal or exceed those for inpatient hospital stays because program
    reimbursement for hospital outpatient departments is not subjected to any
    limitation similar to a DRG rate or fixed ASC rate. By shifting cots to the
    outpatient department ,hospitals can increase their Medicare revenues.
    Hospital outpatient bill include charges for the operating room and the recovery
    room , aswell as supplies and dipoables which accompany cataract surgery.
    These supplies and dispoables are subjected to the hospitals' usual mark- up,
    which may be as high as 80 to 100 percent. When these same supplies are used
    in an ASC , they are included in the fixed rate and the Medicare program does
    not acknowledge these mark- ups in actual program payments. This inpection
    found that some of the hospitals with the highest      mark- up were being   reimbursed
    by Medicare at 100 percent of their charges.

    In almost all cases , the hospital outpatient charges are higher than the DRG rate
    for cataract    surgery. This does not always mean that Medicare pays more for
    the surgery when it is performed in the outpatient department , but this can and
    wil happen       Medicare continues
                    if                         to apply the reasonable cot       concept to
    outpatient services.




                                             -15­

  SEPARATE PAYMENTS TO ASISTANT SURGEONS AND ANESTHESIOLOGISTS
  DISCOURAGE USE OF QUAUFIED TECHNICIANS AND NURSES
  Medicare recognizes and pays separate charges for assistant surgeons and
  anesthesiologists who paticipate in cataract surgery. The asistant surgeon
  payment is lSually 20 percent of th surgeon' s fee, while the anesthesiologist is
  paid base units plus time lIits.
  An assistant surgeon fee ca be as high as $700 , with a maximum Medicare
  payment of $560. Ophthalmologists interviewed in the inpection agreed that the
  role of the asistant  surgeon could be adequately performed by either an
 ophthalmology technician or a trained nurse. However , very few surgeons are
 using technicians or nurses because Medicare wil not pay separately for their
 services. The saaries of the technician or nurses would have to come out of
 the surge  s payment.

  The findings   in the   inpection mirror  those of a   recent report by the audit
  section of the OlG. That report        recommends   that the services
                                                                      of asistant
  surgeons duing cataract surgery should not be paid by Medicare lIless there is
, clear and specific medical justification for their presence. The Office of Audit
  recommendation has been incorporated in section   147 of the budget reconcilation
  Act of   1985. Excluding    payments for asistant surgeons wil save Medicare at
  least $40 milion   annually.
  Anesthesiology during cataract surgery primarily consists of a local anesthetic
  administered by injection by the    surgeon.General anesthesia is rarely used.
  This reduces the role of the anesthesiologist to administering intravenous solutions
  and monitoring vital signs-taslcS that can be, and often are , performed by
  certified nurse anesthetists. In states such as Texas it is common for
  anesthesiologists to employ nurse anesthetists (CRNAs) to carry out these
  responsibilties. California anesthesiologists , on the other hand , rarely employ
  CRNAs because there are a sufficient number of anesthesiologists wiling
  perform these standby services. In either cae , Medicare payment is separate
  from the surgeon' s and adds conside rably to the total cost of cataract surgery
  for the program.

  Current fees for anesthesiologists involved in cataract surgery are up to $550
  with Medicare paying a maximum of $440. It is estimated that 1985 Medicare
  payments to anesthesiologists for services associated with cataract surgery wil be
  in excess of $156 milion.




                                        -16­

'.




                                      PROPOSED CHANGES


                                       RECOMMENDATION       II
     ISSUE:	   Excessive cots are being incurred by both the Medicare program and
               beneficiaries for   cataract
                                          implant surgeries performed in hospital
               outpatient departments. In this inspection , the average reimburse­
               ment for outpatient hospital services exceeded the DRG payment by
               $269. Some hospitals received as much as $1200 more than their DRG
               p8yment. Compared        to   the fixed
                                                     fate for ASC cataract surgeries,
               hospitals receive an   average of $790 more than surgical centers.


     RECOMMENDATION:	         UMIT HOSPITAL OUTPATIENT FACILITY FEES AND
                              BENEFICIARY CHARGES TO APPROXIMATE MEDICARE
                              PAYMENTS AND CHARGES NOW AUTHORIZED FOR
                              AMBULATORY SURGICAL CENTERS.


     IMPACT:	    It is estimated that the Medicare program could have saved over
                 $143 milion in 1985 if outpatient hospital reimbursement had
                 been limited to the amount a hospital receives under its DRG
                 payment for cataract   surgery.
                                               Even more savings, up to $419
                 milion could      have been
                                          realized if            the
                                                            hospital outpatient
                 department payment had been the same as the fixed rate      for ASCs.

                 Beneficiary expenses   for services received in the outpatient
                 department should be commensurate with those incurred for ASC ser­
                 vices. The hospital would receive 100% of' the established fate
                 and no deductible or coinsurance could be        biled to the benefi­
                 ciary.

     HCF A RESPONSE:	      HCF A   believes it would be inappropriate to use the ASC
                           rate    as a limit for hospital outpatient departments
                           because the rate      has not   been updated in   three years.
                           The OIG supports any initiatives, including the redeter­
                           mining     of
                                     ASC rates which would faciltate the
                                               limit on the payments to hospitals
                           establishment of
                           for    outpatient cataract surgery.
                           important that
                                                                       It
                                                                    is critically
                                               Medicare reimbursement policies    provide
                           an equivalent reimbursement irrespective of setting to
                           address the inequities found in this inpection.




                                                -17­

                                RECOMMENDATION '2



ISSUE:	   Medicare reimbursement principles neither require nor encourage
          providers to obtain lenses at the lowest available price. The
          average Medicare reasonable charge payment to an ophthalmologist or
          an ASC for an IOL      is $365.This inpection found          that
                                                                   discounts
          were available from major manufacturers and that  lenses could   be
          purchased for one half to one   third the average price.

RECOMMENDATION:	          ESTABLISH A NATIONAL CAP (BASED ON A GENERIC
                          PRUDENT BUYER CONCEPT) FOR LENS PAYMENTS WHEN
                          LENSES ARE BILLED SEP ARA TEL Y.


IMPACT:    . Over $31 milion would  have been saved in 1984 if the Medicare,
            lens payment had been capped at $200. If the cap had been $150,
            over $40 milion would have been saved. While , this inspection
            does not recommend that $200 (or $150) be          the
                                                               established cap,
            this figure is  considered conservative given the  inpe ction fir:d­
            ings. The   future impact of this recommendation  wil become   even
            more significant . because     of thecontinued   shift  of cataract
            surgery to ASCs and. physicians' offices where lenses are biled
            separately.

HCFA RESPONSE:	       HCF A concurs with the recommendation and has issued
                      instructions to Medicare carriers stressing inherent
                      reasonableness. On February      18 , 1986, HCF A published a
                      proposed rule which wil permit special payment
                      limitations. This r	 ule wil give              HCF      expanded
                      authority and wil provide the           . foundation for     pro­
                      mulgating a national cap for intraocular lens payments.




                                 RECOMMENDATION '3


ISSUE:    Medicare permits ' the   services of assistant surgeons      ' and anesthe-
          siologists to    be 	biled and paid separately thus reducing the
          incentive to    utilze less costly but
                                              qualified and proficient tech
          nicians and nurses. Use of both physicians can add as much
          $1, 000 to the cost of individual cataract surgery. The OIG issued
          an audit report on June   7 1985, entitled "Review of Medicare
          Payments for  Asistant Surgeon Services During Cataract Surgery"
          in which it is recommended the services of an asistant surgeon be
          excluded from Medicare reimbursement for routine cataract surgery.
          Although ophthalmologists require asistance during cataract
          surgery, such assistance can usually be provided by a surgical
           technician or an operating room nurse.



                                          -18­

RECOMMENDATION:	           PAY A SINGLE PROFESSIONAL FEE . TO COVER ALL
                           PROFESSIONAL STAFF ASSOCIATED WITH CATARACT
                           SURGER Y.


IMPACT:	 Estimated annual savings are at least $40 milion if payments are
         excluded for assistant surgeons and an additional $150 milion or
             more if payments for anesthesiology      services are excluded.

             The surgeon                               assistant surgeons and anesthe­
                                           less costly technicians or
                            could c
                                  	ontinue to use
             siologists rather than                                            nurses.
             However , their fees would have to be paid by the surgeon from the
            . single Medicare payment he receives           unless prior approval had
             been obtained.      Prior approval would be given only            if medical
             necessity could be substantiated.

HCF A RESPONSE:	        HCF A agrees that there                need to    curtail excess
                        payments for anesthesiology        and   assistant surgeon ser­
                        vices for cataract surgery.

                        Instructions have been        isued requiring     that Medicare
                        carriers use   prepayment screen for bilings for
                        asistant surgeons. M
                                           	 edical review wil - be required
                        before payment    is made. Proposed legislation in H.
                        3128 specifically addresses the assistant surgeon      isue.




                                   RECOMMENDATION '4


ISS U E:
   There is currently no mechanism to assess the impact of rapidly
            changing medical technology on fees charged by physicians for
            surgical procedures. For this reason the fees do not reflect
            recent efficiencies. In many cases                including IOL implants
            Medicare is   paying much more than is necessary        to perform the pro­
            cedure in a manner which is    efficient, cost effective and yet con­
            ducive to   quality patient care. The Prospective Payment Commfssion
            carries out this function for inpatient           services    but there
                                   physician
            nothing comparable for 	                  services. 


RECOMMENDATION:	           CREATE AN INDEPENDENT COMMISSION TO                     ASSESS
                           PERIODICALLY THE CHANGES IN SURGICAL PROCE­
                           DURES AND TECHNOLOGY AND MANDATE ADJUSTMENTS
                           TO MEDICARE REIMBURSEMENT.




                                           19­

IMPACT:    This Commission      would determine appropriate
                                                        reimbursement based
           on actual changes        in   surgical procedures. It would provide
                                                                          a
           means for HCF    A to
                               make rapid adjustments in physician payments
           for a wide spectrum of surgical procedures. While actual savings
           cannot be estimated      , it
                                  is anticipated that this mechanism would
           be a centerpiece for controllng           inflationary. medical costs.

HCF A RESPONSE:        HCF A opposes the establishment of another independent
                       commission. However    this recommendation        been            had
                       included in H.      R.
                                        3128  as adopted   by the  Conference
                       Committee.




                            ESTIMATED SAVINGS

RECOMMENDATION                                               SAVINGS

                                      1 Year (1986)                    5 Year ('86 - '90)

                                 DRG Rate             ASC Rate       DRG Rate ASC Rate
Limit Hospital
Outpatient Reimbursement             220 M 740 M
                                                or

                                                                         17 B 3. 7 B
                                                                                    or




Cap Lens Payment                           $150 Cae.                         $150 Cap
                                            74. 2 Milion                       371 Milion


Pay Single Professional   Fee         Ast. Surgeon                         Asst. Surgeon
                                       $40 Milion                          $200 Milion
                                     Anesthesiologist                     Anesthes iologis t
                                      $260 Milion                          $1.3 Billon


Establish Commission                                 Cannot be estimated
                   TOT AL           $594. 2 Milion to                       $3 Bilion to
                                      $1. 1 Bilion                          $5. 6 Bilion




                                            -20­

